will remain liable to pay the balance then due under the existing
terms. The right to reject a change in terms does not apply if we
have not received a required minimum payment within 60 days
after the due date for that payment.

Our Rights to Amend Your Agreement
We may amend this Agreement at any time. We may amend it by
adding, deleting, or changing provision of this Agreement. We
may increase or decrease any or all of your APRs, including any
promotional APRs. When we amend this Agreement we will comply
with the applicable notice requirements of federal and state laws that
in effect at that time.
The reasons we may change the terms of this Agreement includes
the following: your risk profile based on your payment patterns,
transaction patterns, balance patterns, and utilization levels of this
and other accounts, credit bureau information including the age,
history and type of other accounts, and relationships between each
and all of these measures of risk. We may also change terms for
reasons not related to your individual credit history, such as overall
economic and market trends, product design and business needs.
APR increases WILL impact existing balances at the time of the rate
change. If an amendment gives you the opportunity to reject the
change and if you reject the change in the manner provided in such
amendment we may terminate your right to receive credit and may
ask you to return all credit devices as a condition of your rejection. We
may replace your card with another card at any time.

YOUR BILLING RIGHTS

While we investigate whether or not there has been an error, the
following are true:
•
•

•

Notify us In Case of Errors or Questions about Your Bill
If you think there is an error on your statement, write to us at:
Equitable Federal Credit Union
1889 Brittain Rd
Akron, Ohio 44310
In your letter, give us the following information:
•
•
•
•
•

Account information: Your name and account number.
Dollar amount: The dollar amount of the suspected error.
Description of Problem: If you think there is an error on
your bill, describe what you believe is wrong and why you
believe it is a mistake.
You must contact us within 60 days after the error
appeared on your statement.
You must notify us of any potential errors in writing [or
electronically]. You may call us, but if you do we are not
required to investigate any potential errors and you may
have to pay the amount in question.

We cannot try to collect the amount in question, or report
you as delinquent on that amount.
The charge in question may remain on your statement,
and we may continue to charge you interest on that
amount. But, if we determine that we made a mistake,
you will not have to pay the amount in question or any
interest or other fees related to that amount.

In this Agreement the words “you” and “your” mean each and all of
those who apply for the card or who signs this Agreement. “Card”
means the MasterCard Credit Card and any duplicates and renewals
we issue. Everyone who receives signs or uses a card issued under
this Agreement must be a member of this Credit Union. Account means
your MasterCard credit card line of credit account with us. “We”, “us”
and “ours”, means this Credit Union.

While you do not have to pay the amount in question, you
are responsible for the remainder of your balance.

INTEREST RATES AND INTEREST CHARGES

Your Rights If You Are Dissatisfied With Your Credit
Card Purchases
If you are dissatisfied with the goods or services that you have
purchased with your credit card and you have tried in good faith to
correct the problem with the merchant, you may have the right not to
pay the remaining amount due on the purchase. To use this right, all
of the following must be true:
1.

The purchase must have been made in your home state
or within 100 miles of your current mailing address, and
the purchase price must have been more than $50. (Note:
Neither of these are necessary if your purchase was
based on an advertisement we mailed to you, or if we
own the company that sold you the goods or services.)

2.

You must have used your credit card for the purchase.
Purchases made with cash advances from an ATM or with
a check that accesses your credit card account do not
qualify.

This notice contains important information about your rights and our
responsibilities under the Fair Credit Billing Act.
3.

EQUITABLE FEDERAL CREDIT UNION

MASTERCARD CREDIT CARD AGREEMENT

Annual Percentage
Rate
For purchases
Cash advances

9.78%,
13.78%, 16.78%

Annual Percentage
Rate
For Balance Transfers

5.50%

How To Avoid Paying
Interest

Your due date is at least 25 days
after the close of each billing cycle.
We will not charge you any interest
on purchases if you pay your entire
balance by the due date each month.
We will begin charging interest on
cash advances and balance transfers
on the transaction date.

Minimum Interest
Charge

None

For Credit Card Tips
From The Consumer
Protection Bureau

To learn more about the factors to
consider when applying for or using
a credit card, visit the website of the
Consumer Financial Protection Bureau
at: http://www.consumerfinance.gov/
learnmore

You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the
purchase, contact us in writing [or electronically] at:

FEES
Annual Fees

Equitable Federal Credit Union
1889 Brittain Rd
Akron, Ohio 44310
info@eqfcu.org
While we investigate, the same rules apply to the disputed amount as
discussed above. After we finish our investigation, we will tell you our
decision. At that point, if we think you owe an amount and you do not
pay we may report you as delinquent.

TRANSACTION FEES
Cash Advance
Foreign Transactions
In-House Payment
Balance Transfer Fee
PENALTY FEES
Late Payment
Returned Check (NSF)
Over Limit Fee
Card Replacement Fee
How We Will Calculate
Your Balance

G16244

MasterCard Platinum –

None
$25.00 for each transaction
1% of each transaction in U.S. dollars
$3 for every payment made through
the credit union
4% for each balance transferred.
If your payment is not made on or
before your due date you will be
charged up to $25.
You will be charged up to $27 for any
check (or any negotiable instrument
used for payment) returned unpaid
None
$10
We use a method called “Average
Daily Balance (including new
purchases)”

MasterCard CREDIT CARD AGREEMENT
1.

The Annual Percentage Rate (APR) for Purchases is fixed based
on your credit score.

2.

The Annual Percentage Rate (APR) for Cash Advances is based
on your credit score.

3.

Late Fee: If the minimum required payment is not received
by the payment due date, a late charge of up to $25 will be
imposed

4.

Average Daily Balance (including current transactions): We
figure the interest charge on your account by applying the
periodic rate to the average daily balance of your account. To
get the average daily balance, we take the beginning balance
of your account each day, add any new [purchases/advances/
fees], and subtract [any unpaid interest or other finance charges
and] any payment or credits. This gives us the daily balance.
Then, we add up all the daily balances for the billing cycle and
divide the total by the number of days in the billing cycle. This
gives us the average daily balance.

5.

6.

Responsibility: If we issue you a card, you agree to repay all
debts and the FINANCE CHARGE arising from the use of the
card and the card account. For example, you are responsible
for charges made by yourself, your spouse and minor children.
You are also responsible for charges made by anyone else to
whom you give the card, and this responsibility continues until
the card is recovered. You cannot disclaim responsibility by
notifying us, but we will close the account for new transactions
if you so request and return all cards. Your obligation to pay the
account balance continues even though an agreement, divorce
decree or other court judgment to which we are not a party may
direct you or one of the other personas responsible to pay the
account. Any person using the card is jointly responsible with
you for charges he or she makes, but if that person signs the
card he or she becomes a party to this agreement is also jointly
responsible for all charges on the account including yours.
Lost Card Notification and Liability for Unauthorized Use: If
you notice the loss or theft of your credit card or a possible
unauthorized use of your card, your should write or call us
immediately at:
Equitable Federal Credit Union
1889 Brittain Rd
Akron, Ohio 44310
800-321-8237 or 800-442-4757
You will not be liable for any unauthorized use that occurs after
you notify us. You may, however, be liable for unauthorized use
that occurs before your notice to us. In any case, your liability
for transactions on a lost or stolen MasterCard card is $50.00
unless the Credit Union determines that the Cardholder was
grossly negligent or fraudulent in the handling of the account
or card.

7.

Credit Line: If we approve your application, we will establish
a self-replenishing line of credit for you and notify you of its
amount when we issue the card. Your line of credit for cash
advances will be one-half of the overall credit limit established
for you. This line of credit for cash advances is part of, not in

addition to your established line of credit. You agree not to let
the account balance exceed this approved credit line. Each
payment you make on the account will restore your Credit Line
by the amount of this payment which is applied to the principal.
You may request an increase in your Credit line only by written
application to us, which must be approved by our loan officer.
By giving you written notice, we may reduce your credit line
from time to time, or with good cause, revoke your card and
terminate this Agreement. Good cause includes your failure
to comply with this Agreement, or our adverse reevaluation of
your creditworthiness. You may also terminate this Agreement
at any time but termination by either of us does not affect your
obligation to pay the account balance. The cards remain our
property and you must recover and surrender to us all cards
upon request.
8.

Copy Received. You acknowledge a receipt of a copy of this
Agreement.

9.

Credit Information: You authorize us to investigate your credit
standing when opening, renewing or reviewing your account
and you authorize us to disclose information regarding your
account to credit bureaus and other creditors who inquire of us
about your credit standing, to the extent authorized By-Law.

10. Monthly Payment: We will mail you a statement, (unless
otherwise marked for do-not mail or e-statements) every month
showing your Previous Balance of purchases and cash advances,
the current transactions on your account, the remaining credit
available under your Credit Line, the New Balance of purchases
and cash advances, the Total New balance, the Finance Charges
due to date, and other billed fees and the Minimum Payment
required.
Every month you must pay at least the Minimum Payment
on or before the payment due date. You may; of course, pay
more frequently, pay more than the minimum payment, or pay
the total new balance in full - and you will reduce the FINACE
CHARGES by doing so. The minimum payment will be (a) 2%
of your Total New MasterCard Balance, or $10 whichever is
greater, or (b) your Total New Balance, if it is less than $10
plus (c) any portion of the Minimum Payment(s) shown on prior
statement(s) which remains unpaid.
We will apply any payments we receive from you in excess
of the Minimum Payment due to the balance with the highest
annual percentage rate and any remaining portion to the other
balances in descending order from the highest APR based on
the applicable APR in accordance with the law.
11. Default: You will be in default if you fail to make any Minimum
Payment within 25 days after your monthly statement closing
date. You will also be in default if your ability to repay us is
materially reduced by a change in your employment, an
increase in your obligations, bankruptcy or insolvency
proceedings involving you, your death or your failure to abide by
this Agreement, or if the value of our security interest materially
declines. We have the right to demand immediate payment of
your full account balance if you default, subject to our giving you
any notice required by law. To the extent permitted by law, you
will also be required to pay our collection expenses, including

court costs and reasonable attorneys’ fees.
12. Right of Offset: If you are in default, the Credit Union may at
any time without demand or notice of any kind, appropriate and
apply toward the payment of the unpaid balance owing, any
unpaid shares, dividends, or other funds that would not have
adverse tax consequences if pledged as security. You appoint
the Credit Union as your Attorney-in-act to perform any act(s)
which it feels are necessary to protect its security interest.
13. Using the Card. To make a purchase or cash advance, present
the card to a participating MasterCard plan merchant, to us or
to another financial institution, and sign the sales slip or cash
advance draft which will be imprinted with your card. You may
also use your Personal Identification Number (PIN) in conjunction
with the card in an Automated Teller Machine or other type of
electronic terminal. You will retain your copy of sales drafts,
cash advance or credit slips to verify your transactions with the
monthly statement. We reserve the right to make a reasonable
charge for photocopies of slips you may request. A card may
not be used for illegal transactions such as Online Internet
Gambling.
14.

Returns and Adjustments. Merchants and others who honor the
Card may give credit for returns or adjustments, and they will
do so by sending us a credit slip which we will post to your
account. If your credits and payments exceed what you owe
us, we will hold and apply this credit balance against future
purchases and cash advances, or if it is $1 or more, refund it on
your written request or automatically after 6 months.

15. Foreign Transactions. Purchases and cash advances made in
foreign countries and foreign currencies will be billed to you
in U.S. dollars. The conversion rate to dollars will be at (1) the
wholesale market rate or (2) the government mandated rate,
whichever is applicable, in effect one day prior to the processing
date, increased by one percent.
16. Security Interest. To secure your account, you grant us a purchase
money security interest under the Uniform Commercial Code in
any goods you purchase through the account. If you default, we
will have the right to recover any of these goods which have
not been paid for through our application of your payment in a
manner described in paragraph 10.
17. Effect of Agreement. This Agreement is the contract which
applies to all transactions on your account even though the
sales, cash advance, credit or other slips you sign or receive
may contain different terms. We may amend this Agreement
from time to time by sending you a 45 day advance written
notice required by law. Your use of the card thereafter will
indicate your agreement to the amendments. To the extent
the law permits, and we indicate in our notice, amendments
will apply to your existing account balance as well as to future
transactions. You have the right to reject a change in terms prior
to the effective date thereof by calling us toll free at 1-800321-8237 or by mailing to us at: 1889 Brittain Road Akron,
Ohio 44310. In such case, your account will be terminated or
suspended and no further credit will be available to you. You

